Case No.:

IN THE
SUPREME COURT OF THE UNITED STATES
JUAN FRANCISCO VEGA,
PETITIONER/APPELLANT,
V.

CHAD POPPELL,
SECRETARY OF FLORIDA DEPARTMENT OF CHILDREN
AND FAMILIES
RESPONDENT/APPELLEE
PROOF OF SERVICE
I, Juan Francisco Vega, do swear or declare that on December
16, 2020, as required by Rule 29 I have served the enclosed
Petition for a Writ of Certiorari on each party to the above
proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the
above document in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by

Page 1 of 2

delivery to a third-party commercial carrier for delivery within
3 calendar days.
The names and addresses of those served are as follows: Chad
Poppell, Secretary of Florida Department of Children and
Families, 1317 Winewood Blvd., Tallahassee, FL 32399.
I declare under penalty of perjury that the foregoing is true
and correct.
Executed on: December 16, 2020.
(Signature)

Page 2 of 2

